                                     CLOSEOUT FOR M95050018



     On 12 May 1995, two program officers' informed OIG of an allegation of misconduct in
     science against a ~cientist,~  the subject, in connection with an NSF proposal he had
     s~bmitted.~  A researcher4 alleged that the subject had made inappropriate use of the material
     in a manuscript in his proposal. OIG also reviewed an allegation that the subject's proposal
     falsely claimed that the manuscript, co-authored with another scientist,' had been accepted
    for publication in a journal6 published by a prestigious society (the second journal) when it
    had actually been submitted to, and eventually published in, another journal (the third
    journal) .?

    The subject submitted three proposals to NSF. The first proposal8 cited the manuscript as
     "submitted" to the first journal9 in the subject's Biographical Sketch, as "submitted" to the
    second journal in the Results from Prior NSF Support section, and as published in a third
    journal in the most recently submitted progress report. The second proposal, the contents of
'
    which precipitated the allegation, cited the manuscript as "accepted" by the second journal
    (and specified a date of acceptance) in the Bibliography and the Results from Prior NSF
    Support sections. The second and third" proposals listed the manuscript as "accepted" (but
    did not specify a date) by the second journal in the subject's Biographical Sketch.

    Text in the second proposal's project description and preliminary data sections contains five
    citations to the manuscript. This text appears similar or substantially identical to text in the




    --                                                                                faculty member of the




    -
    faculty of the Departme




    -
    ' ~roposa-was             received by NSF on am
                                                  -and               is entitled, "
                                                                                               #        It was
     The researcher is                     -
                                                                 ~
                                                                     a       t         University in-

    5Theezt         i     s      \   He is the




                               It was funded by NSF.
     The iournal was




                                               page 1 of 2                              M95- 18
                             CLOSEOUT FOR M95050018

paper published in the third journal. The text also refers to three figures. Only one of these
figures was reproduced in the proposal and it appeared in the paper published in the third
journal. The citations in the proposal text and accompanying the figures stated that the
manuscript had been "accepted" for publication on a certain date by the second journal.

We could find no evidence that the subject had used the material in the manuscripts he had
co-authored inappropriately, or that he had failed to cite it to the manuscripts or provide
acknowledgment to his co-authors. We concluded there was no substance to this allegation
and did not pursue it further.

When we asked the subject about the conflicting publication information, he explained, and
provided supporting documentation to show, that the paper had been submitted to the first
journal. The manuscript had passed the journal's initial screening, but had been rejected after
a detailed review. It was revised and allegedly provided by the subject's co-author to a
society member for consideration for publication in the second journal. The subject
interpreted the co-author's comments about the member's opinions to mean that the paper
might need revising but that it was accepted for publication in the second journal. He began
incorrectly citing the manuscript as accepted for publication in it. The subject later learned
that the member had not read the manuscript, and when he provided it to the member, learned
that the member would not recommend it for publication. The manuscript was revised and
submitted to the third journal, where it was published. The subject also provided written
documentation that, over the period encompassed by this paper's successive submissions, the
deteriorating communications between two of the co-authors had, in part, led to the subject's
misunderstandings about the status of the manuscript.

We concluded that the subject's false claims about the manuscript were a bad practice but
were not sufficiently serious to initiate an investigation. The seriousness of his actions were
mitigated by the misinformation provided by, and poor communications with, his co-author.
His false claims had not influenced the review process. The subject concluded that his
actions were "honest error[s]" but that he was. also "nayve and incorrect" to cite the
manuscript incorrectly in his proposals. Through our exchanges, the subject now
understands that making such false claims about the status of a manuscript in an NSF
proposal is a bad practice and does not meet the scientific community's expectations for high
scholarship. The subject's progress report with the accurate citation has corrected NSF's
record. We concluded there was no need to pursue this matter further.

This inquiry is closed and no further action will be taken in this case.

cc: Staff Scientist, Legal, AIG-Oversight, IG




                                      page 2 of 2
